Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MANAGEMENT OF INFORMATION TECHNOLOGY
              CONTRACTS AT
   THE FOOD AND DRUG ADMINISTRATION’S
CENTER FOR DRUG EVALUATION AND RESEARCH




                    Daniel R. Levinson
                     Inspector General

                      January 2009
                     OEI-01-07-00450
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ      E X E C U T I V E                              S U M M A R Y


                      OBJECTIVES
                      1. To assess the Food and Drug Administration’s (FDA) Center for Drug
                      Evaluation and Research (CDER) process for selecting information
                      technology (IT) contractors from fiscal year (FY) 2004 to FY 2007.

                      2. To determine the extent to which CDER monitored the performance
                      of its IT contractors from FY 2004 to FY 2007.


                      BACKGROUND
                      In FY 2006, the Department of Health and Human Services spent
                      $5.4 billion on IT. Overall, Federal spending on IT has long been
                      considered high risk for fraud, waste, and abuse because of the
                      significant cost involved and insufficient planning on the part of Federal
                      agencies.

                      The Office of Inspector General conducted a review of the IT contracting
                      practices of FDA’s CDER at the request of the Senate Committee on
                      Finance. The request was in response to a draft consulting report that
                      raised questions about the management of CDER’s IT contracts. The
                      Office of Information Technology was responsible for planning and
                      managing many of the IT services for CDER. The Federal Acquisition
                      Regulation (FAR) governs how all Federal agencies, including FDA, may
                      acquire supplies and services with appropriated funds.

                      Agencies must establish procedures to select qualified contractors while
                      protecting the Government from unnecessary financial risk. To ensure
                      that contracted work is performed efficiently and funds are used
                      effectively, agencies must perform acquisition planning, clearly define
                      what they are buying in a statement of work, and select an appropriate
                      contract type and method. Agencies may use several types of contracts
                      to acquire supplies and services. One such type is time-and-materials,
                      whereby the Government pays the contractor a fixed amount for hourly
                      labor and generally reimburses it for any costs of materials. In
                      addition, agencies must use performance-based contracting for a
                      designated proportion of contracts to encourage contractors to focus on
                      achieving specific outcomes. With limited exceptions, agencies must
                      provide for full and open competition. Once contracted work begins,
                      agencies must monitor contractors to ensure quality results.



    OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   i
E X E C U T I V E               S U             M M A R Y


                   We reviewed the contractor selection, performance measurement and
                   quality assurance (QA) plans, and the performance monitoring for
                   28 CDER OIT contract actions. We also interviewed five current or
                   former CDER contract project officers.


                   FINDINGS
                   CDER’s contract actions demonstrated limited IT planning and
                   increased risk for the Government. CDER used broad language to
                   describe requirements in its statements of work, allowing it to specify
                   its requirements over time. CDER relied primarily on acquisition
                   methods that emphasize speed and flexibility over planning. CDER also
                   relied on time-and-materials contract actions that increase risk for the
                   Government. Because of these decisions, CDER may not achieve the
                   benefits of performance-based acquisition.
                   CDER used quality assurance and monitoring plans inconsistently.
                   Because CDER did not clearly define its requirements or performance
                   measures, it also did not establish QA plans consistently. Twenty-one of
                   twenty-eight contract actions reviewed did not have documented QA
                   plans. Of the seven contract actions that included QA plans, three
                   contained identical plans with generic language calling for 100-percent
                   inspection of deliverables using the same checklist of qualitative
                   measures.


                   RECOMMENDATIONS
                   Several areas of concern exist with CDER’s IT planning process and its
                   contract monitoring. Although the IT contract actions reviewed were
                   generally compliant with the FAR, FDA could minimize its contract risk
                   by making the following changes:
                   Define IT requirements more clearly. FDA should revise its planning
                   processes to define IT requirements in greater detail. This step could lead
                   to additional contracting options and create greater efficiencies in
                   contractor selection and project management as well.
                   Convert ongoing time-and-materials contract actions to fixed-price contract
                   actions when appropriate. Converting ongoing time-and-materials contract
                   actions to fixed-price contract actions would reduce the financial risk
                   borne by the Government and may allow FDA to obtain the same services
                   at a reduced cost. Converting time-and-materials contract actions to



 OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   ii
E X E C U T I V E               S U             M M A R Y


                   fixed-price contract actions would also reduce the amount of oversight
                   needed to ensure labor efficiency.

                   Use performance incentive plans when appropriate. Use of performance
                   incentives could allow FDA to reduce contract costs by tying the
                   contractor’s profit or award fees to quantifiable performance standards.

                   Use documented QA plans. Implementing documented QA plans in its
                   contract actions would allow FDA to create a mechanism for contractor
                   accountability by identifying services that do not meet defined
                   requirements.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   FDA agreed with three of our four recommendations and identified
                   steps it is taking to implement them. FDA neither agreed nor disagreed
                   with our first recommendation to define its IT requirements more
                   clearly. However, it did identify actions it is taking that support that
                   recommendation. In addition, FDA agreed with our other
                   recommendations to convert time-and-materials contracts to fixed-price
                   contracts when appropriate and to use performance incentives and
                   quality assurance plans when applicable. We ask that in its final
                   management decision, FDA more clearly indicate whether it concurs
                   with our first recommendation and what steps it will take to
                   implement it.




 OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   iii
Δ   T A B L E                   O F                C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i



                  INTRODUCTION ........................................... 1



                  CONTRACTING PRIMER ................................... 7




                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                         Limited planning and increased risk.. . . . . . . . . . . . . . . . . . . . . . . . . 10

                         Inconsistent quality assurance and monitoring. . . . . . . . . . . . . . . . . 13



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                            Agency Comments and Office of Inspector General Response . . . . 16


                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                         A: Glossary of Abbreviations, Acronyms, and Contracting Terms . . 18

                         B: Legal Authorities Governing Federal Acquisitions . . . . . . . . . . . 20

                         C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24




OEI-01-07-00450         MANAGEMENT     OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   iv
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To assess the Food and Drug Administration’s (FDA) Center for Drug
                  Evaluation and Research (CDER) process for selecting information
                  technology (IT) contractors from fiscal year (FY) 2004 to FY 2007.

                  2. To determine the extent to which CDER monitored the performance
                  of its IT contractors from FY 2004 to FY 2007.


                  BACKGROUND
                  In FY 2006, the Department of Health and Human Services (HHS)
                  spent $5.4 billion on IT. 1 Overall, Federal spending on IT has long been
                  considered high risk for fraud, waste, and abuse because of the
                  significant cost involved and insufficient planning on the part of Federal
                  agencies. In 1996, Congress passed the Clinger-Cohen Act to improve
                  the way Federal agencies acquire and manage IT services. 2 The Act
                  requires agencies to develop best practices for the acquisition of
                  commercial IT services and to monitor contracted IT services through
                  performance measurement. 3 Despite these efforts, IT contracting
                  remains a high-risk area for the Federal Government. 4
                  The Office of Inspector General conducted a review of the IT contracting
                  practices of FDA’s CDER at the request of the Senate Committee on
                  Finance. The request was in response to a draft consulting report that
                  raised questions about the management of CDER’s IT contracts. The
                  draft report specifically addressed CDER’s management of an IT project
                  called the Adverse Event Reporting System II. 5 This system was
                  intended to be a database for collecting adverse event information for
                  prescription drugs. The draft report indicated that CDER’s Office of
                  Information Technology (OIT) mismanaged the project, resulting in cost
                  overruns and decreased productivity. The draft report also questioned
                  OIT’s contractor selection and management processes.

                    1 Office of Management and Budget, “Report on Information Technology Spending for the
                  Federal Government,” May 2007.
                    2 P.L. 104-106, Div. E (1996); 40 U.S.C. § 11101 et seq.
                    3 40 U.S.C. §§ 11302(f), 11313.
                    4 For example, see United States Government Accountability Office (GAO), “High-Risk
                  Series: Information Management and Technology,” GAO/HR-97-9, February 1997. See also
                  GAO, “Information Technology: Further Improvements Needed to Identify and Oversee
                  Poorly Planned and Performing Projects,” GAO-07-1211T, September 20, 2007.
                    5 Breckenridge Institute, “Independent Verification and Validation of AERS II
                  Requirements Process,” November 2006.



OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   1
I N T R O D        U C T      I O N

                    CDER is responsible for ensuring that drugs marketed within the
                    United States are safe and effective. This responsibility begins in the
                    research and development stage of a potential drug and continues
                    throughout the life of a marketed drug. In keeping with its mission,
                    CDER receives large amounts of electronic information, such as clinical
                    trial data and adverse event reports. It is critical that CDER procure IT
                    systems and services that meet its needs in a cost-effective manner,
                    while also complying with relevant acquisition regulations.
                    CDER IT Planning and Contracting Processes
                    OIT was responsible for planning and managing many of the IT services
                    for CDER. 6 As of May 2008, OIT had 40 staff members across three
                    branches: Enterprise Architecture, Application Development, and
                    Quality Assurance. OIT and its counterparts from the other FDA
                    centers were disbanded and absorbed at the end of FY 2008 into one
                    agencywide Office of Information Management.

                    Prior to the reorganization, CDER components worked with OIT to
                    develop and implement new IT systems. When CDER identified an IT
                    need, such as new software, hardware, or support, it worked with OIT to
                    develop a proposal for CDER’s Information Management Steering
                    Committee’s Planning Subcommittee (the Planning Subcommittee). 7
                    OIT conducted various analyses to include with the proposal, and
                    determined whether it had the expertise to meet each IT request with
                    internal resources or whether it would need to hire a contractor. 8
                    If the proposal was approved by the Planning Subcommittee and OIT
                    decided to hire a contractor, OIT staff worked with FDA’s Office of
                    Acquisition and Grant Services (the Acquisition Office). The Acquisition
                    Office administers contracts for all of FDA, including CDER. 9 Only
                    contracting officers within the Acquisition Office have the authority to
                    enter into, administer, or terminate a contract on behalf of FDA. 10
                    Project officers from OIT provide technical expertise to the Acquisition
                    Office and monitor the contractor to ensure that CDER receives what it



                      6 FDA’s Office of the Chief Information Officer plans and manages cross-center IT
                    services. Some services used by CDER are not managed by OIT, such as data entry. This
                    review will focus on IT services planned and managed by CDER’s OIT exclusively.
                      7 The planning subcommittee is also called the Information Management Advisory
                    Board.
                      8 HHS, FDA, CDER, “Manual of Policies and Procedures,” MAPP 7600.9, Information
                    Management Steering Committee Planning Subcommittee, March 4, 2005, p. 6.
                      9 The Acquisition Office will continue this role after the reorganization.
                      10 48 CFR § 1.602-1(a).




 OEI-01-07-00450    MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   2
I N T R O D        U C T      I O N

                    has paid for, while also ensuring that it complies with the Federal
                    Acquisition Regulation (FAR). 11
                    Contracting Basics
                    In FY 2006, the Government bought over $400 billion worth of goods
                    and services. 12 The FAR governs how all Federal agencies, including
                    FDA, acquire supplies and services with appropriated funds. 13 Agencies
                    also promulgate their own regulations as needed to supplement the
                    FAR. In addition to the FAR, FDA acquisitions must conform to
                    regulations set forth in the HHS Acquisition Regulation and the FDA
                    Acquisition Operating Instructions. 14
                    To comply with the FAR, agencies must establish procedures to select
                    qualified contractors while protecting the Government from
                    unnecessary financial risk. To ensure that contracted work is
                    performed efficiently and funds are used effectively, agencies must
                    perform acquisition planning, 15 clearly define what they are buying in
                    the requirements section of a statement of work, 16 and select an
                    appropriate contract type and method. 17 In addition, agencies must use
                    performance-based contracting for a designated proportion of contracts
                    to encourage contractors to focus on achieving specific outcomes. 18 With
                    limited exceptions, agencies must provide for full and open competition
                    when acquiring goods and services. 19 Once performance begins,
                    agencies must monitor contractors to ensure quality results. 20

                    For more information on contracting regulations and terminology, see
                    the Contracting Primer starting on page 7. See Appendix A for
                    abbreviations and acronyms used in this report and Appendix B for
                    legal authorities governing Federal acquisitions.



                      11 48 CFR § 302.1.
                      12 Trending Analysis Report Since Fiscal Year 2000. Available online at:
                    http://www.fpdsng.com/downloads/top_requests/FPDSNG/5YearViewOnTotals.xls.
                    Accessed May 30, 2008.
                      13 The FAR, located at 48 CFR ch.1, is authorized by the Office of Federal Procurement
                    Policy Act of 1974, as amended. 41 U.S.C. § 405a.
                      14 HHS Acquisition Regulation, 48 CFR ch. 3; FDA, “Acquisition Operating
                    Instructions,” on file at FDA.
                      15 FAR § 7.102(a)–(b).
                      16 Ibid., § 11.002(a).
                      17 Ibid., § 16.104.
                      18 Office of Management and Budget, “Fiscal Year 2008 Performance-Based Acquisition
                    Performance Goal,” December 5, 2007.
                      19 FAR, § 6.101.
                      20 Ibid., §§ 46.102, 46.103.




 OEI-01-07-00450    MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   3
I N T R O D        U C T        I O N

                    Acquisition Advisory Panel Report
                    The Services Acquisition Reform Act of 2003 created the Acquisition
                    Advisory Panel (AAP) to review Federal acquisition laws and
                    regulations and make recommendations to improve contracting
                    practices. 21 Its January 2007 report highlighted problems within
                    Federal contracting, including:
                    •     the Government’s failure to adequately define its service
                          requirements, which leads to a reliance on time-and-materials
                          contracts 22 and reduces the benefits of competition; 23
                    •     the importance of defining service requirements to obtain the
                          maximum benefit of performance-based acquisitions concepts; 24
                          and
                    •     the acquisition workforce’s challenges in writing performance
                          measures and metrics 25 and its insufficient surveillance of
                          multiagency contracts. 26
                    Recent United States Government Accountability Office Report
                    A recent GAO report demonstrates the same problems with Federal
                    contracting that were highlighted in the AAP report. GAO’s review of
                    the Department of Defense’s use of time-and-materials contracts found
                    that the Department uses them because they can be awarded quickly
                    and can be adjusted if requirements change. GAO also found that the
                    Department’s monitoring of time-and-materials contracts was not
                    sufficient given the inherent risks of this contract type. 27




                       21 National Defense Authorization Act for Fiscal Year 2004, P.L. No. 108-136, § 1423
                    (2003).
                      22 AAP, “Report of the Acquisition Advisory Panel to the Office of Federal Procurement
                    Policy and the United States Congress,” January 2007, pp. 7 and 92.
                        23 Ibid., pp. 7 and 92.
                        24 Ibid., p. 8.
                        25 Ibid., p. 178.
                        26 Ibid., p. 93.
                        27 GAO, “Defense Contracting: Improved Insight and Controls Needed over DoD’s
                    Time-and-Materials Contracts,” GAO-07-273, June 2007.



 OEI-01-07-00450    MANAGEMENT    OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   4
I N T R O D        U C T      I O N


                    METHODOLOGY
                    Scope
                    We reviewed CDER’s contract actions for IT purchases valued at
                    $250,000 or more issued from FY 2004 to FY 2007. The contract actions
                    covered a range of IT services from upgrading and operating IT systems
                    to migrating legacy IT systems into new ones. For each contract action,
                    we included the value of all options and modifications. We used the
                    Federal Procurement Data System to collect additional information and
                    confirm the maximum dollar value.

                    Our final review consisted of 28 contract actions. Of these 28 actions,
                    19 were delivery orders generated from three blanket purchase
                    agreements (BPAs). 28 We excluded contract actions that were not
                    overseen by CDER OIT.
                    Data Sources and Analysis
                    Review of Office of Information Technology contract actions. For the 28
                    contract actions reviewed, we reviewed elements of the contract files to
                    determine the extent to which CDER and the Acquisition Office used
                    full and open competition as prescribed by the FAR. For those actions
                    that were competed, we also examined the criteria that CDER used to
                    evaluate prospective contractors and determined how these criteria
                    were weighed during the selection process.

                    In determining the extent to which CDER monitored the performance of
                    its IT contractors, we reviewed performance measurement and quality
                    assurance (QA) plans that were written into the contract actions. We
                    also reviewed evidence of CDER’s monitoring activities and determined
                    the extent to which CDER monitored contract actions after they were
                    awarded.
                    Interviews with Center for Drug Evaluation and Research project officers. We
                    interviewed five current or former CDER project officers to obtain
                    additional background information on specific contract actions, the




                      28 We note that the FAR defines “delivery order” to mean a contract action for products
                    and “task order” to mean a contract action for services. FAR § 2.101. Although our sample
                    contract actions included mostly task orders for services, we sometimes use the term
                    “delivery order” to refer to these contract actions because FDA’s Acquisition Office used this
                    term and the documents are labeled as “delivery orders.”




 OEI-01-07-00450    MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   5
I N T R O D        U C T I O N
                    contract-monitoring process, and any challenges that they faced in
                    carrying out their duties.
                    Limitations
                    We did not assess the qualifications of the contractors that CDER
                    selected or the technology solutions that they provided.
                    Standards
                    We conducted this review in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-07-00450    MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   6
Δ         C O N T R A C T I N G                                               P R I M E R


                  Overview
                  The FAR and applicable agency-specific supplements govern purchases
                  of supplies or services using appropriated funds. Pursuant to these
                  regulations and other applicable authorities, agencies must generally:
                  •   provide for full and open competition when awarding contracts;

                  •   select contractors based on objective evaluation factors; and

                  •   conduct contract monitoring, including establishing a QA plan and
                      ensuring that the contractors comply with the plans and any
                      deadlines.

                  Additionally, legal authorities have established a preference for
                  performance-based acquisition (PBA) of services. Although the
                  Government previously dictated how contractors should perform their
                  work, PBA requires Federal agencies to state their requirements in
                  terms of desired outcomes or results and allows the contractors to
                  perform the work in any manner they deem appropriate. To ensure that
                  outcomes are achieved, PBA contracts must contain measurable
                  performance standards by which to assess the contractors’ work and
                  performance incentives.
                  Acquisition Methods
                  Various acquisition methods are available to Federal agencies.
                  Specifically, agencies may acquire supplies and services by:

                  1. Awarding a new stand-alone contract directly to a vendor and
                     administering it. Generally, this method requires the greatest
                     administrative burden because the agency must perform market
                     research to, among other things, identify qualified contractors; to
                     conduct a competition; and to evaluate proposals or quotes.
                     Agencies are then obligated to administer the contract.

                  2. Ordering directly under an existing contract established by another
                     agency. These contracts, called multiagency contracts or
                     governmentwide acquisition contracts, often require the ordering
                     agency to pay an additional fee for contract use. The main benefit of
                     using this method is a decreased administrative burden associated
                     with the contract award process.

                  3. Ordering from the General Services Administration’s (GSA) Federal
                     Supply Schedule (FSS) program. Under FSS, contractors do not
                     compete directly against each other in obtaining the initial contract



OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   7
 C O     N T R    A C T        I N G                    P R I M E R



                     award. Instead, GSA negotiates pricing and terms with FSS vendors
                     that provide commercial goods and services based on the vendors’
                     own pricing to their commercial customers. Agencies may then place
                     orders under these FSS contracts. FSS orders are considered to be
                     fully competed if agencies follow certain ordering procedures
                     specified by regulation.
                  Contract Types
                  The contract type establishes the performance obligations of the
                  contractor and the payment obligations of the Government. Agencies
                  may use several types of contracts to acquire supplies or services,
                  including:
                  • Time-and-materials contracts. Under this contract type, the
                    Government pays the contractor a fixed amount for hourly labor
                    (including wages, overhead, and profit) and generally reimburses for
                    any costs of materials. These contracts, which specify a maximum
                    dollar amount (ceiling price), may be used only when it is not
                    possible to reasonably estimate the extent or duration of work or its
                    costs. These contracts provide no incentive for the contractor to
                    control costs or ensure labor efficiency and therefore require
                    monitoring to ensure that efficient methods and effective cost
                    controls are used.
                  • Cost-reimbursement contracts. Under a cost-reimbursement contract,
                    the Government reimburses the contractor for its allowable costs,
                    including labor and materials. The contractor has no incentive to
                    control costs, and the Government assumes the financial risk that
                    the service or supplies will be delivered in a cost-effective manner.
                  • Fixed-price contracts. Under a fixed-price contract, the contractor is
                    paid a fixed amount for performing the work or producing
                    deliverables regardless of the actual cost. The contractor, therefore,
                    assumes all performance and financial risk and has an incentive to
                    control costs while delivering the supplies or services.
                  Other Contracting Terms
                  Statement of work. A statement of work is a document that describes the
                  contract’s purpose and the goods or services required under the
                  contract.
                  Full and open competition. With certain limited exceptions, agencies must
                  acquire goods and services using full and open competition and




OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   8
 C O     N T R    A C T        I N G                    P R I M E R

                  competitive procedures. For stand-alone contracts, competitive
                  procedures often involve soliciting proposals or sealed bids. With
                  respect to the FSS, task or delivery orders are considered competitive if
                  they are placed using regulatory procedures. Further, an agency must
                  provide written justification and approval before awarding a contract
                  directly to a sole source under a stand-alone contract or an FSS order.
                  Blanket purchase agreement. BPAs are agreements, usually entered into
                  under FSS contracts, that are intended for agencies that anticipate
                  having recurring needs for supplies or services. Task and delivery
                  orders may be placed under such BPAs.




OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   9
Δ      F I N D I N G S

CDER’s contract actions demonstrated limited IT           CDER’s contract files contained
                                                          basic documentation required
 planning and increased risk for the Government
                                                          under the FAR. However, the
                                                          agency used broad language in its
                     statements of work that failed to describe specific requirements,
                     suggesting that it had not thoroughly planned its IT service
                     acquisitions. In addition, CDER acquired IT services primarily through
                     flexible acquisition methods and time-and-materials contract actions
                     that reduce the agency’s administrative burden but increase risk for the
                     Government. The AAP report highlighted the importance of acquisition
                     planning, which includes improved competition and innovative solutions
                     at the best prices. 29
                     CDER used broad language to describe requirements in its statements of
                     work
                     Several FSS orders used identical language to describe requirements in
                     the statements of work even when the orders were for different services.
                     For example, six of nine orders under one BPA contained statements of
                     work with identical lists of requirements that the contractor would
                     provide. These lists included “IT project management support,” “IT
                     planning and other support,” and “IT analysis and support.” Broad
                     requirements language provided CDER with the flexibility to specify its
                     requirements over time.

                     Another FSS order contained broad language stating that the contractor
                     “will assist with the analysis, development of plans, script writing, and
                     documentation to be implemented immediately under the contract or at
                     a later date by government employees.” The project officer responsible
                     for this order told us that CDER wrote this statement of work to match
                     the contractor’s expertise and that the actual tasks that the contractor
                     performed were specifically defined only after award, when CDER
                     identified its requirements. 30 Another project officer highlighted the
                     difficulty in defining specific requirements because routine maintenance
                     tasks were difficult to capture in a statement of work.

                     In addition, other statements of work contained lists of tasks that were
                     never ultimately requested by CDER. For example, four of nine orders


                       29 AAP, “Report of the Acquisition Advisory Panel to the Office of Federal Procurement

                     Policy and the United States Congress,” January 2007, p. 7.
                       30 The FAR does provide authority for limiting sources under FSS orders. FAR § 8.405-6.
                     For this contract action, CDER’s contract file contained a justification document explaining
                     why competition was limited.



   OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   10
F   I N D I N G       S

                  under one BPA included statements of work listing emergency software
                  releases and various administrative reports that CDER never
                  requested. One project officer told us that CDER may write a statement
                  of work broadly in case the contractor needs to perform tasks in those
                  areas later.

                  Overall, using broad requirements in statements of work is prevalent
                  throughout Government. AAP attributes the inability to clearly define
                  requirements to the acquisition culture of “getting to award,” budgetary
                  time pressures, and an inexperienced contracting workforce. 31
                  CDER relied primarily on acquisition methods that emphasize speed and
                  flexibility over planning
                  In its contractor selection, CDER relied on acquisition methods that
                  have streamlined procedures, including competition requirements.
                  CDER used the FSS or governmentwide acquisition contracts for
                  27 of 28 contract actions reviewed.

                  Although the FAR provides for streamlined procedures, the AAP report
                  raised concerns about FSS orders and governmentwide contracts that
                  contain broad scopes of work and lack acquisition planning, stating that
                  they may result in little meaningful competition. 32 CDER’s reliance on
                  FSS reflects a larger trend across Government, in which the use of FSS
                  had grown to $35.1 billion by FY 2006. 33 One GSA study found that
                  placing orders through FSS decreased the turnaround time for placing
                  an order from 268 days to 15 days. 34
                  Of the 27 contract actions that were FSS or governmentwide acquisition
                  contract actions, 24 were FSS orders. Nineteen of those twenty-four
                  contract actions were delivery orders placed against three BPAs, and
                  the remaining five were single orders. Three of the twenty-seven
                  contract actions were governmentwide acquisition contract actions
                  awarded through interagency agreements. 35


                    31 AAP, “Report of the Acquisition Advisory Panel to the Office of Federal Procurement
                  Policy and the United States Congress,” January 2007, p. 7.
                    32 Ibid., pp. 91–92.
                    33 GSA Data, “Contractors Report of Sales – Schedule Sales FY 2006 Final,” October
                  2006 (on file with GSA).
                    34 J.W. Chierichella and J.S. Aronie, “Multiple Award Schedule Contracting.” Xlibris
                  Corp., 2002, p. 41, cited in AAP, “Report of the Acquisition Advisory Panel to the Office of
                  Federal Procurement Policy and the United States Congress,” January 2007, p. 234.
                    35 Multiple Award Schedule Contracts are awarded by GSA or the Department of
                  Veterans Affairs for similar or comparable supplies or services, established with more than
                  one supplier, at varying prices. The FSS program is also known as the GSA Schedules
                  Program or the Multiple Award Schedule Program. See FAR 8.401–402(a).



OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   11
F   I N D I N G        S


                      CDER used the FSS primarily to procure IT support services, such as
                      program management or technical writing. One project officer told us
                      that CDER uses contractors to fill its ongoing need for IT personnel to
                      perform a variety of tasks related to operations and maintenance. The
                      project officer also stated that CDER previously performed these tasks
                      with its own staff.

                      CDER also acquired IT services through three governmentwide
                      acquisition orders placed through interagency agreements. CDER
                      officials told us that they used interagency agreements primarily
                      because the agency cannot perform contractor selection given its time
                      and personnel constraints. In one instance, FDA received a
                      congressional mandate to build a database. CDER relied on flexible
                      acquisition methods to fill the need quickly. Under these
                      circumstances, the agency had little time to solicit and review bids from
                      contractors.
                      CDER relied on time-and-materials contract actions that increase risk for the
                      Government
                      Twenty-six of twenty-eight contract actions reviewed were
                      time-and-materials contract actions. The FAR states that
                      time-and-materials contracts provide no incentive for the contractors to
                      control costs or increase labor efficiency and, therefore, should be used
                      only when no other contracting method is suitable. 36 CDER’s reliance
                      on time-and-materials contracts shifts financial risk onto the
                      Government and places a greater burden on the agency to control
                      costs. 37

                      Furthermore, CDER extended 24 of 26 time-and-materials contract
                      actions using contract options or modifications. The FAR states that
                      “contracting officers should avoid protracted use of a
                      cost-reimbursement or time-and-materials contract after experience
                      provides a basis for firmer pricing.” 38 We saw no examples in our
                      review in which CDER negotiated firmer pricing for its contract actions
                      over time.




                        36 FAR § 16.601(c).
                        37 Ibid., § 16.601(c)(1). If the Government is not satisfied with the work performed by the
                      contractor, the Government may ask the contractor to remedy the deficiencies but must pay
                      the hourly rate (minus the portion that is profit) until the work is completed.
                      FAR § 52.212-4(a)(4).
                        38 Ibid., § 16.103(c).




    OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   12
F   I N D I N G          S


                        CDER may not achieve the benefits of performance-based acquisitions
                        CDER characterized 20 of 28 contract actions as performance-based
                        acquisitions, but most of these contract actions did not include
                        measurable performance standards and only one included a
                        performance incentive plan. The FAR requires that performance-based
                        contracts contain a statement of work focused on the agency’s desired
                        outcomes, measurable performance standards, and a performance
                        incentive plan. 39 Performance incentives provide additional funds to
                        the contractor for achieving measurable goals.

                        In fact, 19 of the 20 performance-based contract actions identified were
                        time-and-materials contract actions. Because they provide no incentive
                        for the contractor to control costs or increase labor efficiency,
                        time-and-materials contract actions may undermine the benefits of
                        performance-based acquisition.

                        Even when contract actions included measurable performance
                        standards, CDER used them inconsistently. In several contract actions,
                        CDER included measurable performance standards, such as the amount
                        of time needed to resolve help desk issues or hours of operation.
                        However, the same actions included standards that were simply lists of
                        deliverables with no measure of quality. One project officer stated that
                        measurable performance standards do not always readily apply to IT
                        services, such as project management and maintenance and operations.
                        CDER’s lack of clear performance measures may be related to the lack
                        of clear work requirements that we referred to previously.

                        Furthermore, in the one contract action for which CDER used a
                        performance incentive plan, it relied on largely subjective performance
                        elements, such as the extent to which “contractor personnel are
                        prepared for meetings and briefings” and whether work is “performed
                        efficiently with the correct skill mix.”

                                                               Because CDER did not clearly
                      CDER used quality assurance and          define its requirements or
                        monitoring plans inconsistently        performance measures, it also
                                                               did not consistently establish
                        QA plans. QA plans state how and when an agency will evaluate the
                        contractor’s performance against established performance measures.
                        When the agency monitors the contractor according to the QA plan, it


                          39 Ibid., § 37.601(b).




    OEI-01-07-00450     MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   13
 F   I N D I N G       S


                  protects taxpayer funds by holding the contractor accountable for its
                  performance.

                  Twenty-one of twenty-eight contract actions reviewed did not have
                  documented QA plans. Of the seven contract actions that included QA
                  plans, three contained identical plans with generic language calling for
                  100-percent inspection of deliverables using the same checklist of
                  qualitative measures. For two of these three contract actions, the
                  project officers told us that they did not use the plans within their
                  respective statements of work.

                  Without documented QA plans to guide contractor monitoring, CDER’s
                  monitoring appears to focus more on day-to-day tasks than on
                  measuring the quality of the contractors’ performance. For example,
                  one contract action without a QA plan contained monitoring
                  documentation consisting of status reports with a breakdown of the
                  number of hours that the contractor worked on different IT systems.
                  The project officer told us that he reviewed the status reports for billing
                  purposes. Several project officers stated that because contractors often
                  work in the same office as CDER staff, monitoring often consists of
                  informal discussions, e-mails, and ad hoc meetings.

                  The FAR generally provides agencies with discretion when monitoring
                  contracts. However, the FAR also considers time-and-materials
                  contracts to be high-risk contracts that require monitoring
                  commensurate with the risk. As noted earlier, the majority of the
                  contract actions reviewed were time-and-materials.




OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   14
Δ   R E C O M M E N D A T I O N S




                  CDER is responsible for ensuring that drugs marketed within the
                  United States are safe and effective. In keeping with this mission, it is
                  critical that CDER procure IT systems and services that meet its needs
                  in a cost-effective manner while complying with relevant acquisition
                  regulations. We acknowledge that Federal IT contracting presents
                  unique challenges for acquisition personnel and project managers.

                  Although the IT contract actions reviewed were generally compliant
                  with the FAR, several areas of concern exist with CDER’s IT planning
                  process and its contract monitoring. We found that CDER used broad
                  language to describe requirements in its statements of work, relied
                  primarily on acquisition methods that emphasize speed and flexibility
                  over planning, relied on time-and-materials contract actions that
                  increase financial risk to the Government, and may not achieve the
                  benefits of performance-based acquisitions. We also found that CDER
                  used QA and monitoring plans inconsistently. The AAP report of 2007
                  found the same problems throughout the Federal Government.

                  FDA’s Office of Information Management absorbed CDER OIT at the
                  end of FY 2008. Although CDER OIT no longer exists as a separate
                  entity, we identified several steps that FDA should take to minimize its
                  contract risk. FDA should:
                  Define IT Requirements More Clearly
                  FDA should revise its planning processes to define IT requirements in
                  greater detail. Defining requirements more clearly may lead to
                  additional contracting options, such as the use of fixed-price contracts
                  with performance incentives. FDA could create greater efficiencies in
                  contractor selection and project management as well.
                  Convert Ongoing Time-and-Materials Contract Actions to Fixed-Price
                  Contract Actions When Appropriate
                  Although the flexibility of time-and-materials contract actions gives
                  FDA access to a range of contractor expertise when designing a new IT
                  system, this contract type shifts financial risk onto the Government and
                  may not represent the best value for ongoing operations and
                  maintenance functions. Converting ongoing time-and-materials
                  contract actions to fixed-price contract actions would reduce the
                  financial risk borne by the Government and may allow FDA to obtain
                  the same services at a reduced cost. In addition, converting



OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   15
R   E C O        M M E N D A T                  I O N                S




                      time-and-materials contract actions to fixed-price contract actions would
                      also reduce the amount of oversight needed to ensure labor efficiency.
                      Use Performance Incentive Plans When Appropriate
                      FDA could achieve many benefits from the proper use of
                      performance-based acquisitions, such as competitive pricing, innovative
                      solutions, quality services, and results that support agency missions.
                      Use of performance incentives could allow FDA to reduce contract costs
                      by tying the contractor’s profit or award fees to quantifiable
                      performance standards.
                      Use Documented QA Plans
                      QA plans state how and when an agency will evaluate the contractor’s
                      performance against established performance measures. Implementing
                      formal QA plans in its contract actions would allow FDA to identify
                      services that do not meet the defined requirements and create a
                      mechanism for contractor accountability.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      FDA agreed with three of our four recommendations and identified
                      steps it is taking to implement them. It also noted that its
                      organizational restructuring in FY 2008 centralized IT resources and
                      created new processes for acquisition planning.

                      FDA neither agreed nor disagreed with our first recommendation to
                      define its IT requirements more clearly. However, it did identify actions
                      it is taking that support that recommendation. Specifically, FDA
                      reported that it is implementing new processes during the early stages
                      of acquisition planning to better coordinate its IT systems and create
                      efficiencies across FDA. These processes are intended to assist in
                      defining requirements.

                      In addition, FDA agreed with our recommendations to convert
                      time-and-materials contracts to fixed-price contracts when appropriate
                      but noted that fixed-price contracts are most effective for acquisitions in
                      which requirements are clear, such as those for hardware and
                      commercial off-the-shelf software. Finally, FDA agreed with our
                      recommendations to use performance incentive plans and quality
                      assurance plans, stating that it will use these methods in future
                      contracts when applicable.



    OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   16
  R    E C O      M M E N D A T                         I O N               S


                   We ask that in its final management decision, FDA more clearly
                   indicate whether it concurs with our first recommendation and what
                   steps it will take to implement it.

                   For the full text of FDA’s comments, see Appendix C.




OEI-01-07-00450    MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   17
Δ      A P P E N D I X ~ A



 Glossary of Abbreviations, Acronyms, and Contracting Terms


                  Acquisition Advisory Panel (AAP). The Services Acquisition Reform Act
                  of 2003 created AAP to review Federal acquisition laws and regulations
                  and make recommendations to improve contracting practices,
                  particularly regarding commercial and performance-based acquisitions.
                  Blanket Purchase Agreement (BPA). Rather than issue new contracts,
                  agencies may place delivery orders under a BPA to fill recurring needs
                  for supplies or services.
                  Federal Acquisition Regulation (FAR). The FAR is the primary set of
                  regulations governing Federal contracting.
                  Federal Procurement Data System (FPDS). The FPDS is an online
                  database that captures basic information on Government contracts,
                  such as the purchasing agency, contractor name, and contracted dollar
                  amount, and indicates whether the contract was awarded competitively.
                  Federal Supply Schedule (FSS). The FSS is one type of Multiple Award
                  Schedule operated by the General Services Administration. It is a list of
                  prenegotiated Government contracts for commonly used commercial
                  items and services that Federal agencies and other entities may use.
                  Government-Wide Acquisition Contract (GWAC). The Clinger-Cohen Act
                  established GWACs for the streamlined acquisition of information
                  technology (IT) services and products.
                  Performance-Based Acquisition (PBA). The PBA is the Government’s
                  preferred method of service contracting according to the FAR. PBA
                  states the Government’s desired outcomes and allows the contractor to
                  decide how the work will be done to achieve those outcomes.
                  Options. An option is a unilateral right in a contract by which the
                  Government may choose to purchase additional supplies or services or
                  extend the term of the contract. Contracting officers may include
                  options in contracts when they are in the Government’s interest.
                  Risk. Risk refers to the possibility that a contract will not be fulfilled at
                  the agreed-upon price. For example, if the Government agrees to pay a
                  contractor a fixed price to build an IT system, the contractor earns
                  additional profit only if it can build the IT system at a cost less than the
                  fixed price. Thus, the contractor assumes the financial risk.
                  Small Business Contracting Goals. The FAR requires the Government
                  to provide contracting opportunities to small businesses, those owned by

OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   18
A   P   P E N D    I X ~       A



                  veterans and women, those in economically underutilized areas, and
                  those owned by other groups that may be at a disadvantage when
                  competing for contracts. The annual small business goal for all
                  governmentwide prime contract dollars is 23 percent. Agencies must
                  report their small business contract awards through the FPDS.




OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   19
Δ     A P P E N D I X ~ B

    Legal Authorities Governing Federal Acquisitions



                  Assisted Acquisition. 48 CFR § 4.601 (definition of assisted acquisition)

                  Blanket Purchase Agreements (BPA). 48 CFR § 8.405-3(a) (BPAs under
                  Multiple Award Schedule (MAS)/Federal Supply Schedule (FSS)
                  contracts); 48 CFR § 13.303 (stand-alone BPA)
                  Competition Requirements. 48 CFR ch. 1, Part 6; 48 CFR ch. 1, subpart
                  8.4 (FSS competition requirements); 48 CFR § 16.505 (multiagency
                  contracts competition requirements)
                  Evaluation Factors. 48 CFR § 15.303(b)(94) (negotiated contracts);
                  48 CFR § 14.201-5(c) (sealed bid contracts); 48 CFR § 13.106-1
                  (simplified acquisitions)
                  Federal Acquisition Regulation Authority and Applicability. 41 U.S.C.
                  § 405(a); 48 CFR § 1.104; 48 CFR § 2.101 (definition of acquisition)
                  Federal Procurement Data System (FPDS). 48 CFR ch. 1, subpart 4.6

                  FSS Contracts (also known as MAS contracts). 41 U.S.C. § 259(b)(3);
                  48 CFR § 8.404(a); 48 CFR § 6.102(d)(3)
                  Multiagency Contracts (MAC) and Governmentwide Acquisition Contracts
                  (GWAC). 41 U.S.C. §§ 253h and 253k (MAC); 41 U.S.C.
                  § 11314(a)(2) (GWAC); 48 CFR § 2.101 (definition of MAC and GWAC)
                  Option. 48 CFR § 2.101 (definition of option); 48 CFR § 17.202 (option
                  inclusion and exercise)
                  Performance-Based Acquisitions (PBA). Floyd Spence National Defense
                  Authorization Act FY 01, P.L. No. 106-398, § 821 (Oct. 30, 2000);
                  48 CFR § 2.101 (definition of PBA); 48 CFR § 37.102(a); 48 CFR § 37.601
                  Quality Assurance Requirements. 48 CFR, subpart 46.4; 48 CFR
                  § 16.601(b)(1) (time-and-materials contracts-related Government
                  surveillance requirement)
                  Small Business Governmentwide Goal. 15 U.S.C. § 644(g)(1) (annual
                  goal for prime contracts across Government)




OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   20
Δ   A P P E N D I X                        C


     Agency Comments




OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   21
A   P   P E N D       I X     ~           C




    OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   22
A   P   P E N D       I X     ~           C




    OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   23
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell W. Hereford, Deputy Regional
                  Inspector General.

                  Christopher Galvin served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Boston
                  regional office who contributed to the report include Melissa Hafner and
                  Rose Lichtenstein; central office staff who contributed include Mark
                  Richardson and Matthew McMullen.




OEI-01-07-00450   MANAGEMENT   OF   I N F O R M AT I O N T E C H N O L O G Y C O N T R A C T S   AT   F D A’ S C D E R   24
